OIG Audit Report GR-70-07-004

Office of Community Oriented Policing Services Homeland Security Overtime Program Grant to the City of Philadelphia Police Department, Philadelphia, Pennsylvania

Audit Report GR-70-07-004


September 2007
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG), Audit Division, has completed an audit of the Homeland Security Overtime Program (HSOP) grant 2003-OL-WX-0016. The Office of Community Oriented Policing Services (COPS) awarded the City of Philadelphia Police Department (PPD) this grant to fund police overtime for: (1) the PPD’s Operation Safe Streets (OSS) program, intended to disrupt illicit drug sales in the city, and (2) the PPD’s Counter-Terrorism (CT) Bureau to plan for terror incidents and to provide community outreach during crises. The PPD received the $3,000,000 grant in September 2003. The PPD contributed an additional $1,001,051 for a required 25-percent share of its total program costs of $4,001,051. 
 The purpose of our audit was to determine whether the costs reimbursed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grant. We also assessed the PPD’s program performance in meeting grant objectives and overall accomplishments. 
We determined that the PPD did not fully comply with the grant requirements we tested. We reviewed compliance with six essential grant conditions and found material weaknesses in four of the six areas: (1) grant expenditures, (2) matching expenditures, (3) reporting, and (4) program performance. 
 From our sampled expenditures, the PPD could not provide adequate supporting documentation for $162,201 in grant and matching expenditures related to OSS overtime. The PPD also could not provide adequate documentation to support $77,059 of the sampled CT grant expenditures. In total, the PPD could not provide documentation for $239,260 in grant expenditures. We statistically projected these unsupported expenditures across the entire PPD database of grant and matching expenditures for a total of $1,202,816 in questioned costs for unsupported expenditures.1   The PPD also made $957 in unallowable expenditures for overtime not related to the grant program. As a result of the deficiencies, we question a total of $1,203,773 in expenditures. The questioned costs total about 40 percent of the COPS HSOP grant award.
 In addition to the questioned costs, we had four management findings related to expenditures, matching, reporting, and program performance. We found the PPD commingled the accounting for grant expenses with expenses from other funding sources, thereby complicating the audit trail and leading to findings in other areas. Matching expenditures were also commingled in the accounting records and were not specifically recorded as required. Not all of the Financial Status Reports were filed on time, and due to the commingled accounting, we could not determine if all of the reports accurately reflected grant activities. 
 We also determined that the PPD did not demonstrate that grant funds supplement local law enforcement programs and that instead, grant funds may have been used to supplant expenditures that otherwise would have been paid for with other funds. Finally, we concluded that the PPD did not maintain performance data for grant-funded programs that would have allowed us to evaluate the extent to which the objectives of the programs were met. 
 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with PPD officials and have included their comments in the report, as applicable. In addition, we requested a response to our draft audit report from the PPD and COPS, and their responses are appended to this report. 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.








Return to OIG Home Page